Credit Card Agreement and Disclosure
INTEREST RATES AND INTEREST CHARGES
ANNUAL PERCENTAGE RATE
for Purchases

{} VISA Secured 6.50%
{} VISA Classic 8.90% –

18.00% **

2.90% Promotional APR for 12 months. After that, your APR will be 6.50%
{} VISA Classic 2.90% Promotional APR for 12 months. After that, your APR will be 8.90% –
18.00% **
{} VISA Secured 6.50%
{} VISA Classic 8.90% – 18.00% **
{} VISA Secured

ANNUAL PERCENTAGE RATE
for Balance Transfers

ANNUAL PERCENTAGE RATE
for Cash Advances
How To Avoid Paying
Interest on Payments

Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest on
purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $.50.

For Credit Card Tips From
the Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov./learnmore

FEES
Set-up And Maintenance Fees
Annual Fee
Transaction Fees
Balance Transfer Fee
Foreign Transaction Fees
Penalty Fees
Late Payment
Returned Payment

NONE
NONE
1% of transaction amount/foreign
Up to $25.00
Up to $30.00

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new purchases)”.
See your agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your agreement.
**ANNUAL PERCENTAGE RATE is based on your credit history.

2013 ConmarSystems, Peachtree City, GA 30269 – EFORM 19114-2 Rev. 10/15

In this Agreement the words "you" and "your" mean each and all of those who agree to be bound
by this Agreement; "Card" means the VISA Credit Card and any duplicates, renewals, or
substitutions FedEx Employees Credit Association issues to you; "Account" means your VISA
Credit Card line of credit account with FedEx Employees Credit Association, and whose name
appears on this Agreement or anyone to whom FedEx Employees Credit Association transfers
this Agreement.
1. Using Your Account. If you are approved for an Account, FedEx Employees Credit
Association will establish a line of credit for you and notify you of your credit limit. You agree
that your credit limit is the maximum amount (purchases, cash advances, finance charges,
plus "other charges") that you will have outstanding on your Account at any time. Each payment
you make to your Account will restore your credit limit by the amount of the payment, unless you
are over your credit limit. If you are over your credit limit, you must pay the amount you are over
before payments will begin to restore your credit limit. You may request an increase in your
credit limit only by a method acceptable to FedEx Employees Credit Association.
FedEx Employees Credit Association has the right to reduce your credit limit, refuse to make an
advance and/or terminate your Account at any time for any reason not prohibited by law.
2. Using the VISA Card. You may use your Card to make purchases from merchants and others
who accept VISA Cards. However, you may not use your Card to initiate any type of electronic
gambling transaction through the internet. In addition, you may obtain cash advances from
FedEx Employees Credit Association and from other financial institutions that accept VISA
Cards, and from some automated teller machines Cirrus (ATMs), (Not all Cirrus ATMs accept
VISA Cards.) To obtain cash advances from an Cirrus ATM, you must use the Personal
Identification Number (PIN) that is issued to you for use with your Card. You may use your Visa
Card to conduct any transaction or obtain any FedEx Employees Credit Association service
permitted by law. You agree that the use of the Visa Card to obtain a service or effect a
transaction that is illegal under the law of any jurisdiction where originated, effected or
accomplished will be a default and breach of this Agreement. We may terminate the access to
the service or withdraw the right to use the Visa Card and/or demand the return of all Visa Cards
or other access devices issued to you. If illegal use of your Visa Card occurs, you waive the
right to sue us and agree to indemnify and hold us harmless from any suits or other legal action
or liability which may be asserted, directly or indirectly, against us arising out of or resulting from
the illegal use of the Visa Card.
3. Responsibility. You agree to pay all charges (purchases and cash advances) to your
Account that are made by you or anyone whom you authorize to use your Account. You also
agree to pay all finance charges and other charges added to your Account under the terms of
this Agreement or another agreement you made with FedEx Employees Credit Association. If
this is a joint Account, Section 17 of this Agreement also applies to your Account.
4. Finance Charges. New purchases posted to your account during a billing cycle will not incur
a finance charge for that billing cycle if you had a zero or credit balance at the beginning of that
billing cycle or you paid the entire New Balance on the previous cycle’s billing statement by the
Payment Due Date of that statement; otherwise a finance charge will accrue from the date a
purchase is posted to your account. To avoid an additional finance charge on the balance of
purchases, you must pay the entire New Balance on the billing statement by the Payment Due
Date of that statement. A finance charge begins to accrue on cash advances from the date you
get the cash advance or from the first day of the billing cycle in which the cash advance is posted
to your account, whichever is later.
The finance charge is calculated separately for purchases and cash advances. For purchases,
the finance charge is computed by applying the monthly periodic rate to the average daily
balance of purchases. To get the average daily balance of purchases, we take the beginning
outstanding balance of purchases each day, add any new purchases and subtract any payments
and/or credits. This gives us the daily balance of purchases. Then we add all the daily balances
of purchases for the billing cycle together and divide the total by the number of days in the billing
cycle. This gives us the average daily balance of purchases.
For cash advances, the finance charge is computed by applying the monthly periodic rate to the
average daily balance of cash advances. To get the average daily balance of cash advances,
we take the beginning outstanding balance of cash advances each day, add in any new cash
advances, and subtract any payments and/or credits that we apply to the cash advance balance.
This gives us the daily balance of cash advances. Then we add all the daily balances of cash
advances for the billing cycle together and divide the total by the number of days in the billing
cycle. This gives us the average daily balance of cash advances.
The ANNUAL PERCENTAGE RATE for your Card is based on certain creditworthiness criteria.
For our VISA Classic Card, the monthly periodic rate for purchases and cash advances is
0.7417% - 1.50%, which is an ANNUAL PERCENTAGE RATE of 8.90% - 18.00%. Balance
Transfers promotional monthly periodic rate is 0.02417%, which is and ANNUAL
PERCENTAGE RATE of 2.90% for 12 months. After the promotional period, the monthly
periodic rate is 0.7417% - 1.50% which is an ANNUAL PERCENTAGE RATE of 8.90% 18.00%.
For our VISA Secured Card, the monthly periodic rate for purchases and cash advances is
0.5417%, which is an ANNUAL PERCENTAGE RATE of 6.50%. Balance Transfers promotional
monthly periodic rate is 0.02417%, which is and ANNUAL PERCENTAGE RATE of 2.90% for
12 months. After the promotional period, the monthly periodic rate is 0.5417% which is an
ANNUAL PERCENTAGE RATE of 6.50%.
5. Other Charges. The following other charges (fees) will be added to your Account, as
applicable:
a) Late Payment Fee: If you are 10 days or more days late in making a payment, a late charge
up to $25.00 will be added to your account.
2013 ConmarSystems, Peachtree City, GA 30269 – EFORM 19114-2 Rev. 10/15

b) Return Payment Fee: If a check or share draft used to make a payment on your account is
returned unpaid, you will be charged a fee, up to $30.00 for each item returned.
c) Card Replacement Fee: You will be charged $15.00 for each replacement card that you
request.
d) Document Copy Fee: You will be charged $2.00 per statement plus $15.00 per hour for each
statement that you request (except when the request is made in connection with a billing error
made by FedEx Employees Credit Association).
e) Collection Costs: To the extent permitted by law, you agree to pay all costs of collecting the
amount you owe under this Agreement, including court costs and attorney’s fees.
f) Rush Delivery Fee: For normal production, rush delivery is $17.00. additional fees may apply
to weekend delivery if available.
6. Payments. Each month you must pay at least the minimum payment shown on your
statement by the date specified on the statement or no later than 25 days from the statement
closing date, whichever is later. If your statement says the payment is "Now Due," your payment
is due no later than 25 days from the statement closing date. You may pay more frequently, pay
more than the minimum payment or pay the Total New Balance in full. If you make extra or
larger payments, you are still required to make at least the minimum payment each month
your Account has a balance (other than a credit balance). The minimum payment is 3% of your
Total New Balance, or $25.00 whichever is greater, plus the amount of any prior minimum
payments that you have not made, and any amount you are over your credit limit. FedEx
Employees Credit Association also has the right to demand immediate payment of any amount
by which you are over your credit limit.
7. Payment Allocation. Payments when paid during a billing cycle will be applied to amounts
outstanding at the time payment is received in the following order: Unpaid interest, other
charges, previous cash advances, balance transfers and current purchases. Payment amounts
in excess of your minimum payment will be applied first to balances with the highest Annual
Percentage Rate until that balance is paid off and then to balances with the next highest Annual
Percentage Rate until those balances are paid off.
8. Security Interest. To secure your credit card account, you grant us a purchase money
security interest in any goods you purchase through the account. If you default, we will have the
right to recover any of these goods which have not been paid for. As a condition for the approval
of your credit card account you grant us a specific pledge of your FedEx Employees Credit
Association shares (deposits) and checking account(s), excepting those accounts that would
have an adverse tax consequence if pledged as collateral. Collateral securing other loans you
have with FedEx Employees Credit Association may also secure this loan, except that your
home will never be considered as security for this Account notwithstanding anything to the
contrary in any other agreement.
PLEDGE OF SHARE AND SHARE DRAFT (CHECKING) ACCOUNT(S)—NOTE: YOU
PLEDGE TO US AND GRANT A SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT
ACCOUNTS YOU HAVE WITH US NOW AND IN THE FUTURE, TO SECURE YOUR
CREDIT CARD ACCOUNT. YOU AUTHORIZE US TO APPLY THE BALANCE IN THESE
ACCOUNT(S) TO PAY ANY AMOUNTS DUE UNDER THIS AGREEMENT IF YOU SHOULD
DEFAULT.
9. Default. You will be in default if you fail to make any minimum payment or other required
payment by the date that it is due. You will be in default if you break any promise you make
under this Agreement. You will be in default if you die, file for bankruptcy or become insolvent,
that is, unable to pay your obligations when they become due. You will be in default if you make
any false or misleading statements in any credit application or credit update. You will also be in
default if something happens that FedEx Employees Credit Association believes may
substantially reduce your ability to repay what you owe.
When you are in default, FedEx Employees Credit Association has the right to demand
immediate payment of your full Account balance without giving you notice. If immediate payment
is demanded, you agree to continue paying finance charge, at the periodic rate charged before
default, until what you owe has been paid, and any shares that were given as security for your
Account may be applied towards what you owe.
10. Unauthorized Use—Lost/Stolen Card Notification. You have no liability for the
unauthorized use of your card. If you believe your card has been lost or stolen, notify FedEx
Employees Credit Association orally or by calling (800) 991-4964 twenty four hours a day or in
writing at 2731 Nonconnah Blvd., Memphis, TN 38132.
11. Changing or Terminating Your Account. Upon notice to you as required by law, the terms
and conditions in this Agreement may be amended by FedEx Employees Credit Association at
any time. The amendment shall govern any transactions occurring prior to the effective date of
the amendment, as to which there is an unpaid balance owing on the effective date of the
amendment and the amendment shall also govern any transaction occurring after such effective
date. Upon notice of amendment, you will have the right to surrender your Card, whereupon you
may continue to pay off your account in the same manner and under the same terms and
conditions as then in effect. Your failure to surrender the Card prior to the effective date of the
amendment shall constitute consent to the amendment.
12. Credit Information. You authorize FedEx Employees Credit Association to investigate your
credit standing when opening or reviewing your Account. You authorize FedEx Employees
Credit Association to disclose information regarding your Account to credit bureaus and
creditors who inquire about your credit standing.
13. Returns and Adjustments. Merchants and others who honor your Card may give credit for
returns or adjustments, and they will do so by sending FedEx Employees Credit Association a
credit slip which will be posted to your Account. If your credits and payments exceed what you
owe FedEx Employees Credit Association, the amount will be applied against future purchases

and cash advances. If the credit balance amount is $1 or more, it will be refunded upon your
written request or automatically after six months.
14. Additional Benefits/Card Enhancements. FedEx Employees Credit Association may from
time to time offer additional services to your Account, such as travel accident insurance, at no
additional cost to you. You understand that FedEx Employees Credit Association is not obligated
to offer such services and may withdraw or change them at any time.
15. Foreign Transactions. Purchases and cash advances made in foreign countries and
foreign currencies will be billed to you in U.S. dollars. The conversion rate to U.S. dollars will be
determined in accordance with the operating regulations established by VISA International.
Currently the currency conversion rate used to determine the transaction amount in U.S. dollars
is either a government-mandated rate or the wholesale market rate in effect one day prior to the
transaction processing date, increased by one-percent. The currency conversion rate used on
the processing date may differ from the rate that would have been used on the purchase date
or cardholder statement posting date.
16. Merchant Disputes. FedEx Employees Credit Association is not responsible for the refusal
of any merchant or financial institution to honor your Card. FedEx Employees Credit Association
is subject to claims and defenses (other than tort claims) arising out of goods or services you
purchase with the Card if you have made a good faith attempt but have been unable to obtain
satisfaction from the merchant or service provider, and (a) your purchase was made in
response to an advertisement FedEx Employees Credit Association sent or participated in
sending to you; or (b) your purchase cost more than $50 and was made in your state or within
100 miles of your home.
17. Joint Accounts. If this is a joint Account, each person on the Account must sign the
Application for Credit Card. Each of you will be individually and jointly responsible for paying all
amounts owed under this Agreement. This means that FedEx Employees Credit Association
can require any one of you individually to repay the entire amount owed under this Agreement.
Each of you authorizes the other(s) to make purchases or cash advances individually. Any one
of you may terminate the Account and the termination will be effective as to all of you.
18. Effect of Agreement. This Agreement is the contract which applies to all transactions on
your Account even though the sales, cash advances, credit or other slips you sign or receive
may contain different terms.
19. No Waiver. FedEx Employees Credit Association can delay enforcing any of its rights any
number of times without losing them.
20. Statements and Notices. Statements and notices will be mailed to you at the most recent
address you have given FedEx Employees Credit Association. Notice sent to any one of you
will be considered notice to all.
21. Final Expression. This Agreement is the final expression of the terms and conditions of this
VISA line of credit between you and FedEx Employees Credit Association. This written
Agreement may not be contradicted by evidence of any alleged oral agreement.
22. Copy Received. You acknowledge that you have received a copy of this Agreement.
23. Savings Clause. If any of the provisions of this Agreement shall be invalid or unenforceable,
then this Agreement shall be construed as if it did not contain the provisions and FedEx
Employees Credit Association’s right and your obligations shall be construed and enforced
accordingly.

YOUR BILLING RIGHTS

2013 ConmarSystems, Peachtree City, GA 30269 – EFORM 19114-2 Rev. 10/15

Keep This Notice For Future Use
This notice contains important information about your rights and our responsibilities under the
Fair Credit Billing Act.
NOTIFY US IN CASE OF ERRORS OR QUESTIONS ABOUT YOUR BILL
If you think your bill is wrong, or if you need more information about a transaction on your bill,
write us on a separate sheet at the address listed on your bill. Write to us as soon as possible.
We must hear from you no later than 60 days after we sent you the first bill on which the error
or problem appeared. You can telephone us, but doing so will not preserve your rights.
In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can, why you believe there is an error. If you need more
information, describe the item you are not sure about.
If you have authorized us to pay your credit card bill automatically from your share account or
share draft account, you can stop the payment on any amount you think is wrong. To stop the
payment your letter must reach us three business days before the automatic payment is
scheduled to occur.
YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER WE RECEIVE YOUR WRITTEN
NOTICE
We must acknowledge your letter within 30 days, unless we have corrected the error by then.
Within 90 days, we must either correct the error or explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you question or report as
delinquent. We can continue to bill you for the amount you question, including finance charges,
and we can apply any unpaid amount against your credit limit. You do not have to pay any
questioned amount while we are investigating, but you are still obligated to pay the parts of your
bill that are not in question.
If we find that we made a mistake on your bill, you will not have to pay any finance charges
related to any questioned amount. If we didn't make a mistake, you may have to pay finance
charges, and you will have to make up any missed payments on the questioned amount. In
either case, we will send you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent. However,
if our explanation does not satisfy you and you write to us within 10 days telling us that you still
refuse to pay, we must tell anyone we report you to that you have a question about your bill.
And, we must tell anyone we report you to that the matter has been settled between us when it
finally is. If we don't follow these rules, we can't collect the first $50 of the questioned amount,
even if your bill was correct.
TO REPORT LOST OR STOLEN CARDS, CALL (800) 991-4964 SPECIAL RULE FOR
CREDIT CARD PURCHASES
If you have a problem with the quality of property or services that you purchased with a credit
card, and you have tried in good faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the property or services. There are two
limitations on this right:
(a) You must have made the purchase in your home state or, if not within your home state,
within 100 miles of your current mailing address; and
(b) The purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or if we mailed you the
advertisement for the property or service.

